    EFFECTIVENESS OF THE DISTRICT 11
     COAL MINE SAFETY AND HEALTH
          INSPECTION PROGRAM
         BIRMINGHAM, ALABAMA
MINE SAFETY AND HEALTH ADMINISTRATION




             U.S. Department of Labor
            Office of Inspector General
  Office of Analysis, Complaints and Evaluations




                                   Report No. 18-OACE-98-MSHA
                                   Date: SEP. 30, 1998
                                                       Table of Contents

                                                                                                                                       Page

       Executive Summary ............................................................................................................. i

I.     Background ..........................................................................................................................3

II.    Scope and Methodology ......................................................................................................4

III.   Review Results.....................................................................................................................5

       1.         Incidence Rates ........................................................................................................5

       2.         Violations .................................................................................................................7

       3.         The Conferencing Process .......................................................................................8

       4.         Training for Structural Inspections .......................................................................11

       5.         Timeliness of 103 (g) Investigations at JWR#4 and JWR#7 ..................................12

       6.         Onsite Inspections of JWR#4 and JWR#7..............................................................15

       7.         JWR#4 Haulage Accident and 103 (g) Issues........................................................16

       8.         Conflict of Interest at JWR#4.................................................................................18

       9.         District 11 Management Issues..............................................................................20

IV.    Conclusions........................................................................................................................22

V.     Recommendations..............................................................................................................23

Appendix

       A.         Glossary .................................................................................................................27

       B.         MSHA’s Response to the Draft Evaluation Report ...............................................30
                                          Executive Summary

This report presents the results of an evaluation, conducted by the Office of Inspector General
(OIG), Office of Analysis, Complaints and Evaluations, of the effectiveness of the mine safety
and health inspection program in Alabama in response to a letter, dated October 17, 1996, from
the United Mine Workers of America (UMWA) to the Inspector General. The UMWA’s
correspondence raised concerns that the Mine Safety and Health Administration’s (MSHA)
District 11 in Alabama was not fulfilling its responsibility to protect mine workers by conducting
enforcement activity in an effective and appropriate manner. Among the allegations we reviewed
are that District 11 did not: conduct proper and timely 103(g) inspections in accordance with the
Federal Mine Safety and Health Act of 1977 (Mine Act); ensure abatement of long-term mining
hazards at several mines; address potential conflicts of interest; cite all violations by mine
operators; and conduct appropriate or sufficient enforcement activities. Our review encompassed
a broad based evaluation of the effectiveness of the District’s enforcement program and included
many of the specific items cited in the UMWA’s correspondence.

In summary, we concluded that the mines in Alabama have better safety records now than prior
to the creation of District 11, as indicated by the declining incidence rates of mining accidents
and injuries. In addition, violations in District 11 have decreased by 15 percent over the last two
years, concurrent with an overall improvement in the quality of citations and orders. On the other
hand, enforcement actions have not decreased at the majority of mines considered most
hazardous by the UMWA. Our review identified the following areas warranting MSHA’s
attention to improve the coal mine safety and health inspection program in Alabama and/or
nationwide:

       While the conference process is and has been properly administered in District 11,
       communication with and the involvement of inspectors can be improved. We have,
       therefore, recommended that inspectors be provided regular briefings regarding those
       judicial or Commission decisions that affect the issuance of citations and orders and
       copies of those rulings that serve as the basis for a Conference Officer’s decision.

       District 11 inspections of above-ground mining structures where fatal accidents
       subsequently occurred were not sub-standard. District 11 inspectors, however, like their
       counterparts nationwide, lack training and expertise to evaluate certain potential
       structural weaknesses that require additional evaluation from MSHA engineers. We
       recommend that all MSHA inspectors receive training on identifying potential above-
       ground structural failure as soon as possible.

       Many of the issues raised by the UMWA resulted from a need for more effective
       communication between MSHA and the Union. We believe the relationship between
       District 11 and the UMWA can be improved through joint meetings and dialog sessions.

       District 11 generally handled Section 103 (g) investigations expeditiously and
       appropriately. However, a major complaint filed under Section 103 (g) by the UMWA
       against Jim Walter Resources (JWR) mines #4 and #7 was not addressed appropriately by
       District 11, largely as a result of ineffective communication between District 11
       supervisors and Union officials.

       District 11 managers have acted to minimize conflicts of interest and have otherwise
       implemented new policies, in good faith, to improve enforcement. However, we have
       recommended that additional policies, consistent with MSHA’s ethics guidelines and
       labor-management agreement, be instituted requiring inspection personnel to disclose to
       agency management officials both immediate family relationships with mine employees
       and any other personal relationships that may give the appearance of a conflict of interest.

The Assistant Secretary for Mine Safety and Health’s response to our draft report, dated
September 24, 1998, advised that the agency agrees with our conclusions and recommendations.
The response also indicates that significant actions are already in process with respect to several
of our recommendations, including providing additional information to inspectors concerning the
decisions of the Mine Safety and Health Review Commission and the scheduling of quarterly
health and safety meetings between District 11 management and inspection personnel, labor
officials and representatives, mine operators and other interested parties. MSHA’s detailed
response to each recommendation is included in the text of the report and a complete copy of the
response can be found in the Appendix.
I.     Background

On October 17, 1996, the UMWA filed a complaint with the OIG raising concerns that MSHA
was not fulfilling its legal responsibility to protect mine workers under the Mine Act, Title 30
CFR and agency policy, by conducting its management and inspections activities in an
appropriate manner. The UMWA also contended that as a result of the District’s enforcement
practices, Alabama miners worked under unacceptably hazardous conditions in which several
accidents and fatalities occurred. Furthermore, the complaint alleges discrimination and/or
retaliation against miners who report safety violations in the workplace, which is a violation of
Section 105 c, of the Mine Act. The UMWA’s complaint also cites numerous violations
concerning: Jim Walter Resources, Inc. (JWR) mines, primarily mines #4 and #7; and, the
Drummond Company, Inc. Kellerman Preparation Plant, among others. The complaint focused
primarily on issues such as unresponsivess to 103 (g) complaints, conflicts of interest, faulty
haulage systems, and severe structural failures that MSHA inspectors had not identified or
ensured were abated in a timely manner.

MSHA administers the provisions of the Mine Act and enforces compliance with mandatory
safety and health standards as a means to eliminate fatal accidents; reduce the frequency and
severity of nonfatal accidents; minimize health hazards; and, promote improved safety and health
conditions in the Nation’s mines. MSHA carries out the mandates of the Mine Act at all mining
and mineral processing operations in the United States, regardless of size, number of employees,
commodity mined, or method of extraction.

MSHA is headed by an Assistant Secretary of Labor who is responsible for administering the
broad regulatory program to reduce injuries and illnesses associated with mining. Enforcement
of safety and health rules and other responsibilities are carried out by two functional divisions,
Metal and Nonmetal Mine Safety and Health and Coal Mine Safety and Health. The latter
conducts its mine inspection, investigation, and training programs through eleven district offices
and a system of subordinate offices in the nation’s coal mining regions.

Effective October 1, 1995, a new district (District 11) was established in Birmingham, Alabama
to encompass the staff and boundaries of the former Birmingham sub-district. The purpose was
to allow MSHA to respond more effectively to the unique coal mining conditions and special
technical and enforcement problems associated with the large, gassy mines of that region. The
mines in the Birmingham area represent the greatest concentration of gassy mines in the country
and liberate high quantities of methane gas exceeding more than a million cubic feet during a
twenty-four hour period. They are also some of the largest and the deepest, e.g., JWR #5 mine is
the deepest vertical shaft mine in North America, at a depth of 2,140 feet. Because of the
methane and large numbers of people underground, there is a considerable potential for disasters.

MSHA’s enforcement responsibilities in District 11 currently encompass fifty surface facilities,
requiring inspection at least two times per year, and ten underground mines (of which all but two
are unionized), requiring inspection at least four times per year. Here, as elsewhere, MSHA’s
inspection presence does not, by itself, result in violation-free mines. Therefore, MSHA
encourages voluntary compliance with the Mine Act through training, technical assistance, and
other non-enforcement activities. In addition, at those unionized mines and facilities, UMWA
safety and health representatives play a valuable role by conducting independent bi-monthly
safety inspections and bringing those results to the mine operator’s attention for corrective
action.

II.    Scope and Methodology

Some of the concerns submitted by the UMWA to the OIG were also submitted to the Federal
Mine Safety and Health Review Commission (Commission). Such issues, which involve
allegations that MSHA and mine operators engaged in discriminatory, intimidating, and
retaliatory actions against miners or their representatives in violation of Section 105 c, of the
Mine Act, are pending before the Commission and, as a result, were not examined by OIG. In
addition, we also excluded from the scope of our review an allegation that MSI-IA officials had
not maintained the confidentiality of mine workers or their representatives filing complaints
under Section 103(g) of the Mine Act because of the direct relationship of this incident to the
UMWA’s complaint to the Commission.

Several of the UMWA’s concerns were potentially criminal in nature and were referred to the
OIG’s Office of Investigations (OI). OI has completed its investigation of these items and did not
identify any matters meriting referral for prosecutive action. The OIG’s Office of Analysis,
Complaints and Evaluations (OACE) reviewed the non-criminal issues within the scope of our
program evaluation. The concerns we reviewed included those in the UMWA’s October 17,
1996 submission, as well as additional issues raised during interviews with miners, miner
representatives, and MSHA employees. We also reviewed in detail managerial, programmatic,
and performance issues not directly raised by the UMWA, but which also impact District 11
performance and, therefore, the health and safety of the miners in Alabama.

Extensive field work was conducted in District 11. Visits were made to the MSHA and UMWA
offices in Birmingham, and MSHA field offices in Jasper, and Hueytown. Interviews were
conducted with MSHA employees, miners, miner representatives, and mine operators. We
reviewed documentation supplied by both MSHA and the UMWA. We also examined, with
MSHA and UMWA officials, underground conditions in two of the largest District 11 mines, Jim
Walter Resources (JWR) mines #4 and #7. In addition, a mining orientation visit was made to
JWR’s #5 mine. MSHA engineers who participated in accident investigations in District 11 were
interviewed at MSHA’s Pittsburgh, PA Safety and Health Technology Center. Attorneys with the
Solicitor of Labor (SOL), who are responsible for litigating MSHA cases, were also interviewed.

Our review was conducted in accordance with the Quality Standards for Inspections, published
by the Presidents Council on Integrity and Efficiency.

III.   Review Results

1.     Incidence Rates

A central theme articulated by UMWA members is that safety in the Alabama mines has
deteriorated since November 1995. This was the period when mines in Alabama came under the
oversight of new managers appointed to supervise the newly-created District 11. To evaluate the
UMWA’s allegations, we conducted an analysis of mining incidence (injury) rates in Alabama
mines from January 1990 through September 1997. The incidence rate is calculated by adding
the number of fatalities, non-fatal accidents that require days off work, and mining injuries that
do not involve lost work days,. per 200,000 hours of employment. As illustrated in the graph
below, short-term incidence rates have improved from their peak in 1994.

                             Total Incidence Rates - Alabama Mines




Our review found that, overall Alabama incidence rates were at their worst in the two years prior
to the arrival of the new District 11 management team. In terms of individual categories within
the total incidence rate, the most notable short-term incidence improvement is the Non-Fatal
Days Lost (NFDL) category, which improved by 26 percent from 1994 (12.68) to 1997 (9.38). It
is possible that at least some of the NFDL improvement is a result of operator programs that
return injured miners to positions performing light-duty work. For example, our review indicates
that there were higher NDL (No Days Lost) rates in 1996 and 1997 than in 1994 and 1995.
However, since all injuries are included in the total incidence rate, based on these statistics,
Alabama mines appeared safer in 1996-1997 than in 1994-1995.

Incidence Rates at JWR #4 and JWR#7

Because many of the UMWA’s complaints involve the JWR#4 and JWR#7 mines, we closely
scrutinized incidence rates for these mines. As can be seen below, safety conditions deteriorated
in these mines during the years preceding the UMWA complaint. However, incidence rates at
these mines also dropped dramatically in 1996 and 1997.

                               JWR # 4 Total Incidence Rates




                               JWR # 7 Total Incidence Rates
2.     Violations

The District 11 inspectors and managers used violations and related enforcement tools during the
period October 1995 through September 1997 in accordance with the Act, MSHA regulations
and procedures to increase the effectiveness of the inspection program and improve safety and
health conditions in Alabama mines. While the number of violations issued, considered in
isolation, is not a reliable measure of MSHA’s effectiveness, this statistic in combination with
other information can provide meaningful insights into the program’s performance. Our review
of violations issued by District 11 confirmed a decreasing trend, similar to that of incidence
rates, with an overall reduction of 15 percent in violations issued during the two years. However,
this trend did not hold true for the majority of mines of particular concern to the UMWA, where
the number of violations increased. Our review also confirmed that District 11 is appropriately
using a related enforcement tool, Pattern of Violations analysis, to assess whether more
aggressive enforcement action is warranted at any of the mines. Concurrent with the decreases in
the numbers of violations issued during the two fiscal years was an appreciable improvement in
the quality of documentation and support for the District’s enforcement actions according to
Department of Labor attorneys and mining industry officials.

The UMWA’s concern that violations were on the decline in District 11, including in mines
where Union officials considered conditions especially hazardous, was not substantiated by our
review. Between the two reporting periods Fiscal Years 1996 and 1997, violations fluctuated
from one month to the next for each mine. A closer analysis of recent violations history and
trends was conducted of those mines that were viewed as problematic for purposes of this review
(JWR #7, 4, 3, Boone #1). While overall District 11 violations had declined by 15 percent
between the two reporting periods, all except one of the mines of concern actually experienced
an increase in the number of violations issued. Violations issued at JWR #3 increased by 26.7
percent; at JWR #4, violations increased by 20.7 percent; JWR #7 experienced a decrease of 3.6
percent; and, Boone #1’s violations increased by 103 percent over the twenty-four month period.

We evaluated District 11’s Pattern of Violations (POV) analyses, an MSHA enforcement tool
entailing an annual review of the history of violations accumulated by each mine for the prior
two fiscal years, and concluded that District 11 was in compliance with MSHA’s policy and
procedures in this regard and had conducted thorough POV analyses. The objective of a POV
analysis is to identify operators who habitually allow the recurrence of violations. Mine operators
are responsible for compliance and should institute whatever actions are necessary to improve
safety. While MSHA expects improvements at mines with poor compliance histories and will
assist mine operators where possible, its primary responsibility is to enforce the Mine Act and
regulations through fair and impartial inspections. Issuance of a section 104(e) POV notice
should be an enforcement tool reserved for those chronic violators who do not respond to other
efforts to bring their mines into compliance.

We reviewed District 11's analyses for the two periods, October 1, 1994 through September 30,
1996, and July 1, 1995 through June 30, 1997 and noted that mines were identified for further
consideration through the initial screening process in both years’ POV analyses. The initial
screening of each mine must be completed by district personnel once every 12 months. Usually,
a mine’s 2-year compliance history provides sufficient information for an evaluation of the
health and safety conditions. A threshold number of violations, appropriate for the mines in a
given District, is used for this screening process to identify those mines having compliance
problems. For each mine, District 11 used a threshold of 50 or more Significant & Substantial
citations over a 12-month period.

Those mines District 11 identified in this screening as having a compliance problem had the
pattern criteria applied to determine if they demonstrated a potential POV. This part of the
process focused on the mine’s history of repeated Significant & Substantial violations of a
particular standard or standards related to the same hazard. Repeated Significant & Substantial
violations caused by unwarrantable failure to comply were also considered. It should be noted
that only those citations and orders issued in the compliance history period and that had become
final either through the assessment process or through litigation, could be used for pattern
criteria. Constructive actions taken by mine operators to improve their compliance records were
also considered. Our review confirmed that District 11 officials had appropriately applied the
criteria and none of these mines fit the criteria for a pattern of violations.

Concurrent with the reductions in the number of violations issued during Fiscal Years 1996 and
1997, some stakeholders reported an improvement in the quality of District 11's inspection
performance and the documentation of enforcement actions. For example, the Solicitor of Labor
(SOL)’s statistical information and observations indicate that there has been an overall
improvement in the quality of citations and orders issued by District 11 inspectors. Prior to the
above period, SOL found many violations were unsupportable when taken to litigation. Since
1996, the number of contested violations has decreased by 60 percent. In addition, as discussed
in our finding concerning District 11 management issues, mining industry officials in Alabama
advised that they have noted improvements in the professionalism and quality of MSHA
inspections during the past two years.

In summary, our review determined that while overall violations are on the decline in District 11
mines, this measurement of enforcement action has not decreased at the majority of the mines
considered most hazardous by the UMWA. Additionally, we confirmed that District 11
management is analyzing the history of each mine’s violations in accordance with MSHA
procedures, to identify whether Pattern of Violations provisions should be invoked to strengthen
enforcement actions. Lastly, the quality of violations issued by District 11 improved during our
review period while the quantity decreased.

3.     The Conferencing Process

While the conference process is and has been properly administered in District 11,
communication with and the involvement of inspectors can be improved. Specifically, our
review of violations conferenced at a number of mines found the District’s activities to be
consistent with MSHA’s procedures and guidelines for safety and health conferences. However,
some inspectors asserted that citations and violations are being incorrectly vacated or modified
by the Conference Officer with insufficient input and justification from the issuing inspector.
Those inspectors indicated that they are demoralized when their citations are “second-guessed”
and either vacated or modified.

Our evaluation of District 11 operations included a thorough examination of the conference
process for two primary reasons. First, the issuance of violations and MSHA’s internal process of
holding conferences with operators to informally resolve contested violations are closely linked.
Second, conferencing arose as an issue during our interviews, with some inspectors contending
that the conferencing process could be manipulated and skewed by District management in order
to artificially prove that violations, particulary Significant and Substantial violations, were
decreasing and the mines in Alabama were, therefore, safer.

In contested cases, the Conference Litigation Representative (CLR)/Conference Officer is
responsible for conducting safety and health conferences and/or conducting subsequent
settlement conferences and appearing before Administrative Law Judges (ALJs) of the Federal
Mine Safety and Health Review Commission (FMSHC)/Commission. After initially reviewing
all available information, the CLR has the option of contacting the issuing inspector or his or her
supervisor, in order to discuss and obtain any additional, relevant information regarding the
violation. Additionally, the conference procedures and guidelines do not mandate that the
inspector be present at a conference. Based on the complexity and his understanding of the
violation(s) to be conferenced, the CLR makes a decision whether additional explanatory
information is needed from the inspector and whether his/her presence at the conference is
necessary. Frequently, the inspector is not included in the conference in order to minimize the
time taken away from inspection duties.

Our review did not substantiate the claim that citations are being incorrectly modified or vacated
by the CLR, as suggested by some inspectors. At a safety and health conference, questions or
problems regarding the issuance of a citation or order (including the inspector’s evaluation of
negligence, gravity, and good faith) are reviewed and discussed. After interviewing current and
former Conference Officers, we concluded that reasonable individuals might differ in their
assessment of such areas as gravity and negligence, particularly after factoring in any
extenuating circumstances offered during the conference process.

The CLR may affirm the inspector’s findings or, if facts and circumstances provided during the
conference warrant, find that the citation or order be modified or vacated. The CLR’s decision is
then forwarded to the appropriate field office supervisor. The supervisor ensures that the
citations and orders are modified or vacated as necessary. If the supervisor disagrees with the
CLR’s decision, it is his/her responsibility to contact the Assistant District Manager for
resolution. If there is no disagreement, the issuing inspector is expected to make the changes and
return it to the supervisor within 24 hours of the change request.

Our review of District 11's conferencing data for 1995 through 1997 did not support the
contention that the current CLR was modifying and vacating more violations than his
predecessor, as suggested by some inspectors. In fact, the data showed that the total number of
safety and health conferences actually diminished by 50 percent over those 3 years. In addition,
of the violations that the CLR conferenced, his decisions upheld the violations at approximately
the same rate (50%) as had the decisions of his predecessor.

A senior SOL attorney further supported this finding. Since 1996, he has experienced a reduction
of over 55 percent in the number of contested civil penalty cases and over 60 percent in the
number of contested violations that his office handles in the conference litigation process. He
attributes this significant decrease in contested cases and violations to both improved case
handling by the Conference Officer and an overall improvement in the quality of citations and
orders issued by inspectors. Prior to that period, he found many violations were not supportable
when taken to litigation. In his opinion, the Alternative Case Resolution Initiative (ACRI) is
accomplishing what it was designed to do, as exhibited through the shift in caseload between his
office and the CLR, as well as renewed confidence by many company operators in the
conference process.

Our review did confirm that at least some inspectors resent changes that are made to citations
they have issued. These inspectors expressed concerns that their work is being questioned by a
CLR who “doesn’t have all the facts” or that inspectors are not always given the opportunity to
state their position fully (either before or at the conference). Some inspectors were also
dissatisfied with abbreviated explanations, such as an FMSHC or ALJ ruling influenced the
CLR’s decision to modify or vacate a citation or order, without the specific information the
inspector should consider during future inspections.

The CLR is functioning within prescribed procedures and guidelines when he communicates
through the field office supervisor. However, because of limited direct pre-conference input, as
well as infrequent participation in safety and health conferences, some inspectors are left with
the impression that they “never get their day in court.” Feedback and communication between
the inspectors and the Conference Officer is generally limited, particularly regarding the CLR’s
basis for decisions to modify or vacate, as well as AU and Commission rulings impacting such
decisions.

Some inspectors commented that the extent and frequency of communication was better during
the tenure of former CLRs. The fact that a previous CLR worked out of the Jasper field office
certainly enhanced his ability to more readily communicate with the inspectors in that field
office. On the other hand, the inspectors at the Hueytown field office did not hold the same
opinion. Nonetheless, since October 1996, the Conference Officer has operated out of the
District Office.

District 11 needs to improve communication between the CLR and the inspectors. In this regard,
increased efforts should be made by the CLR to directly contact the issuing inspector prior to a
conference, allowing that inspector to fully state his or her position. Additionally, a copy should
be made available to inspectors and supervisors alike, of those FMSHC and ALJ rulings that
served as the basis for the CLR’s decision.

The instructional aspect of the ACRI program, in particular, preparation of the necessary
modification by the inspector, can only be fully effective if there is a clear explanation and
understanding of the basis for the change. Even with improved communication between the
Conference Officer and the inspector, there may continue to be disagreements regarding CLR
decisions; what is expected over time, however, is a better understanding on the part of the
inspectors as to what forms the basis of those decisions.

4.     Training for Structural Inspections

Two fatal accidents in District 11 during November and December 1995 highlight the need for
improved training of MSHA inspectors to better ensure that potential safety hazards involving
surface mine structures are identified. Our review indicates that the inspectors were not trained to
recognize serious decay of the surface structures. MSHA’s accident investigation found that the
decay was ultimately responsible for the accidents. It is important to note that these surface
structure hazards had also gone undetected by UMWA representatives at these mines who have
since received additional training from MSHA in identifying such problems. Subsequent to the
accidents, District 11 inspectors also received training on the identification of potential above-
ground structural hazards. However, MSHA inspectors nationwide could also benefit from such
training.

A fatality at the Drummond-Kellerman preparation plant on November 28, 1995, illustrates why
MSHA inspectors need training in order to better identify potential above-ground structural
hazards. This above-ground plant was 24 years old at the time when two conveyor belt lines and
support structures collapsed, resulting in a fatality. MSHA had conducted a surface inspection on
September 18, 1995, but had not cited the No. 16 and No. 17 belt lines or support structures
subsequently cited by District 11 during the accident investigation following the fatality.
According to engineers from MSHA’s technical support center in Pittsburgh who participated in
the accident investigation and who reviewed video and photographic footage of the accident
during our interviews, it was evident that the wear and corrosion of the Kellerman structure was
long-term in nature. The engineers noted, however, that this was from the perspective of a
trained engineer. The engineers were adamant that MSHA inspectors in District 11 and
nationwide had not received training to identify potentially hazardous conditions in above
ground structures. Therefore, the engineers were not of the opinion that the September 18
inspection was sub-standard, rather they believed that an MSHA inspector would not necessarily
have sufficient expertise to identify potential structural failure.

Similarly, Pittsburgh engineers attributed the November 10, 1995, rock bin collapse at JWR #5
to structural failure that could possibly have been identified prior to the accident if inspectors
were trained to recognize serious decay. In this case, poor welds connecting the cone of the rock
bin to its flange, and long-term corrosion of the rock bin itself, were the primary reasons for the
collapse. As with Kellerman, the engineers could not say that the prior MSHA inspections were
deficient, noting that many of the alignment and welding problems would not have been
observable during a shift because of rock debris falling through the cone. The engineers did note,
however, that holes and gashes that may have compromised structural integrity above the flange
plate may have been observable from the ground by an inspector. However, they also advised
that an inspector at the time would not have been trained to have an awareness that this was a
potential hazard requiring further review from technical support engineers. After the accident
investigation, the operator was cited for failing to maintain the rock bin structure in good repair.
Although miners and their safety representatives we interviewed stated that they were aware of
the structural hazards at Kellerman and JWR #5 prior to the fatal accidents, no 103(g) complaints
were filed before either accident.

       Training Issues

       After the accidents, the technical center engineers conducted training for the District 11
       personnel generally responsible for surface inspections. The engineers also developed a
       training course, using slides from the Drummond-Kellerman accident, that they have
       conducted for UMWA representatives at MSHA’s Beckley, West Virginia academy. The
       engineers noted that some of the training that is needed for all inspectors nationwide is
       very basic. For example, in their opinion, inspectors should be instructed to go beyond a
       simple visual structural inspection by using binoculars or crane buckets to better observe
       potential hazards. Training should also ensure that basic tools and techniques, such as
       hitting a structure firmly with a hammer to gauge rust and corrosion, are utilized. The
       engineers did not expect that inspectors should or could be so well-trained that they
       would necessarily be able to definitively identify structural hazards. Rather, they stressed
       that all inspectors nationwide need to be taught how to identify potential structural
       hazards that may require more in-depth evaluation from technical support in Pittsburgh.

       We contacted MSHA officials to determine if there are plans to address above-ground
       structural training. Although no training agendas are currently being formulated, training
       officials indicated that they are evaluating the issue and were receptive to our
       observations regarding the need for additional training for inspectors in the area of
       aboveground structures.

5.     Timeliness of 103 (g) Investigations at JWR #4 and JWR#7
The UMWA’s complaint to the OIG indicated that District 11 did not conduct immediate 103 (g)
inspections1, issue notices of negative findings, or provide miners with the right to challenge
negative findings. Our review of District 11 files and documentation from 1995 through 1997
indicated that 103 (g) complaints have generally been responded to and negative findings issued
in a timely manner. However, a complaint filed by UMWA representatives on February 12,
1996, regarding conditions at Jim Walter Resources (JWR) mines #4, and #7 was not
investigated in an appropriate and timely manner, and miner representatives were not provided
with notice of negative findings. We concluded that this occurred because District 11
management did not recognize the UMWA’s February 12 submission as a valid 103 (g). After
the UMWA complained of District 11's handling of its February 12 correspondence, MSHA’s
national office issued policy guidelines to ensure the proper processing and investigation of 103
(g) complaints. However, effective communications and good-faith efforts between District 11
and the UMWA may have ensured more timely inspection and abatement of serious hazards at
the JWR #4 and #7 mines.

       UMWA Complaint on February 12, 1996

       Although this comprehensive complaint which contained over eighty (80) items was
       clearly labeled a 103 (g) complaint by the UMWA, District 11 management did not view
       it as a valid 103 (g), but simply a presentation of the UMWA’s normal bi-monthly
       inspection. Given the unusually large number of items in the complaint, District 11
       management decided to address the issues raised in the 103 (g) during the normal
       quarterly inspection (AAA). The UMWA international representative was informed that
       the complaint would be investigated during the AAA and did not appeal this decision to
       higher level MSHA officials. Ultimately, District 11 personnel also covered some of the
       103 (g) issues during accident investigations and winter alert visits. Contrary to the
       UMWA’s concerns, we found no evidence that an attempt was made to conceal the dates
       of these inspections or to falsify inspections records. Inspection records were coded based
       on the primary reason the inspector visited the mine (AAA inspection, winter alert, etc.).

       The issues contained in the 103 (g) complaint ranged from serious to minor, although our
       review indicates that neither the UMWA, in its complaint, nor District 11 in its
       investigation, placed priority on the most dangerous safety items. As a result, these items
       were not investigated promptly. Although District 11 investigated a serious haulage issue
       on February 15, potentially serious float coal dust, methane, and roof control issues were
       not addressed until March 2, 1996, as part of an ongoing accident investigation. The
       remaining float coal dust issues items were not addressed until April 18, 1996. Final
       items in the 103 (g) complaint of a less serious nature (which involved a wide variety of
       items including electrical, belt-line, ventilation, clean-up, roof control, and walk-ways)
       were reviewed on April 24, 1996,.

       Although District 11 management and personnel had extra demands placed on them in
       February 1996, including a major mine fire at the JWR #5 mine, February 12 complaint
       issues that did pose a reasonable possibility of imminent danger to miners, such as
       excessive methane or coal dust accumulations, should have been investigated
       immediately. Investigations of the serious items could have been conducted quickly by
the resident inspectors at the mines, or by any other readily available MSHA inspectors.
Because most of the issues in the February 12 complaint did not pose a threat of
imminent danger to miners, these less serious ones could have been deferred, so as not to
interfere with adequate inspection coverage for other mines or other areas of the JWR #4
and #7 mines. Nonetheless, because of the very dynamic nature of coal mining, any valid
103 (g) issue must be investigated as soon as possible. A failure of MSHA to investigate
a 103 (g) complaint in a timely manner means that the condition, such as float coal dust,
may never be properly evaluated, given constantly changing mining conditions. During
our interviews and discussions, District 11 management concurred that better supervision
could have ensured the timely inspection of priority issues raised by the UMWA.

The UMWA could have been better served by separating the serious from the minor
issues in its complaint, rather than combining them with all bi-monthly inspection items
and presenting District 11 with a 103 (g) complaint. Again, relatively few of the over 80
items indicated a potentially serious or imminent danger, yet all items were presented
together without any prioritization. Indeed, based on our review, it appears that neither
the UMWA nor District 11 viewed the February complaint seriously enough, given that
findings were not requested by the Union until May and were issued by District 11 only
after several written inquiries by the UMWA.

Effective Communication Issues

Effective communication could have ensured that the more serious issues in the
UMWA’s February 12, complaint were investigated appropriately, and working relations
between District 11 and UMWA officials were not harmed. Similarly, upon receipt of the
complaint, District 11 management, including field management responsible for day-
today operations, could have met with Union safety officials to discuss which issues
warranted immediate attention. Union officials, in turn, could have voiced any concerns
that they may have had regarding MSHA’s investigative priorities and methods.

Aftermath of the February 12, 103 (g) Complaint

In August 1996, the UMWA formally requested that MSHA evaluate and clarify its
policies and procedures regarding the processing and investigation of 103 (g) complaints.

On September 18, 1996, MSHA’s Administrator for Coal Mine Safety and Health
responded with a memorandum to all MSHA District Managers. While none of the
content of the memorandum was entirely new MSHA policy, it did emphasize those areas
where District 11 did not comply in regard to the February 12, 1996, UMWA complaint.
The memo emphasized that:

1.     All section 103(g) complaints must be reviewed immediately to determine
       whether the conditions or practices described in the complaint constitute an
       imminent danger to the miners. If there is a reasonable possibility that an
       imminent danger exists, the operator must be notified and the inspection must be
       conducted immediately.
       2.      Less serious issues must be investigated as soon as possible, with 103 (g)
               inspections given a high priority (in comparison to all other enforcement activity).
               103 (g)’s cannot be deferred until the next regular inspection of the mine.

       3.      The inspector must issue notice of negative findings at the conclusion of each
               day’s inspection activities.

       This policy memorandum addressed the UMWA’s concerns regarding the 103 (g)
       complaint. Our review indicates that District 11 management has subsequently complied
       with these polices and procedures. However, joint meetings and dialogue sessions
       between District 11 and UMWA safety and health representatives should be conducted
       regarding 103 (g) issues.

6.     Onsite Inspections of JWR#4 and JWR#7

On December 3 and 4, 1997, we accompanied UMWA Safety & Health committeemen on their
unannounced bi-monthly inspections of the JWR#4 and JWR#7 mines. Although MSHA
inspectors from outside District 11 were used by the OIG as expert observers on mining and
mining conditions, the inspections were conducted by the UMWA. The purpose of these visits
was to assess the overall health and safety conditions of these mines at the time, and to provide
us with the opportunity to observe the interactions between inspectors, miner representatives, and
miners. At the time of our visit, the MSHA inspectors from outside District 11 determined that
the JWR mines were essentially in good standing in terms of overall health and safety conditions,
commenting they would rate the conditions observed with a score of 7 on a scale of 1 to 10. This
visit also illustrated the different perspectives of MSHA inspectors and committeemen.

       Conditions of the Mines

       JWR#4 was inspected by the above referenced team, during the evening shift of
       December 3. Travel was by mantrip and on foot to areas where continuous mining and
       longwall mining were underway. JWR#7 was inspected in the same maimer during the
       morning shift on December 4. Both mines had violations of the Mine Act, although the
       vast majority of these violations were not Significant & Substantial in nature nor
       indicative of long-term neglect on the part of the operator. The MSHA inspectors from
       District 4 stated that the number and type of violations observed at the JWR mines were
       not unusual, and that the JWR mines seemed in fairly safe condition.

       Perspectives of Safety and Health Committeemen vs. MSHA Inspectors

       We observed during the mine visits that the MSHA inspectors and UMWA
       committeemen did not always agree on what constituted mine safety violations. In some
       cases, the UMWA documented conditions that the inspectors did not consider to be
       violations of the Mine Act. In others, there was disagreement regarding the severity of
       violations. Beyond simply the varying degrees of technical expertise between the UMWA
       committeemen and MSHA inspectors, it became apparent that the role of a UMWA
       committeeman differs significantly from that of an MSHA inspector.

       A committeeman’s sole role is to promote mine safety. We noted that some of the
       committeemen were very knowledgeable of MSHA enforcement policies and procedures,
       and use MSHA regulations as guidelines for their own inspections. However, a
       committeeman is not constrained by formal statute and regulation. Thus, in making an
       inspection of a mine, the committeeman can present to an operator any and all conditions
       that can impact health and safety, regardless of whether all the conditions are actual
       violations of the Mine Act. The committeeman may, or may not, be capable of
       convincing the operator to correct any unsafe or potentially unsafe condition(s), but can
       always attempt to negotiate with the operator to do so. However, MSHA inspectors can
       only cite those conditions that appear to be legally enforceable under the Mine Act. Many
       such citations involve on-the-spot judgements and regulatory interpretations that can be,
       and frequently are, challenged by the operator through District conferences, the courts or
       the Commission. As a result, an MSHA inspector cannot cite legally unsupportable
       mining conditions, without seriously undermining his own credibility or that of MSHA.

7.     JWR #4 Haulage Accident and 103 (g) Issues

Our review did not substantiate that a February 26, 1996 accident which severely injured a miner
at JWR #4 resulted from long-term haulage hazards at the mine which had been ignored by
MSHA inspectors, as indicated by UMWA members. Rather, as the accident investigation found,
it was caused by the excessive speed of the locomotive which struck the mantrip the miner was
riding. The excessive speed of the locomotive was due to recklessness on the part of the driver,
as well as oversized gravel used in the sanding devices. Neither of these factors can be
reasonably attributable to MSHA negligence. It does appear, however, that several of the
UMWA’s overall concerns about track and haulage issues at JWR#4, communicated to MSHA
in 103 (g) complaints in January, were valid and appropriately addressed by MSHA.2 Other
haulage and track complaints raised by the UMWA through letters, rather than 103 (g)
complaints, addressed issues over which MSHA has limited or, in some cases, no enforcement
authority.

From 1992 through 1996, UMWA representatives submitted letters to various MSHA officials
regarding a variety of track and haulage issues at JWR #4. The dominant and recurring issue
involved the Union’s objection to JWR’s block-light system for traffic control of mantrips,
locomotives, and other mining equipment. The UMWA has never approved of the block-light
system, and has repeatedly requested that MSHA require JWR to implement a dispatcher system.
MSHA does not have the authority to require operators to use dispatchers and, unlike West
Virginia, Alabama state mining laws also do not require dispatchers.

On January 18, 1996, UMWA representatives lodged very broad 103(g) complaints regarding
track and haulage issues at JWR #4, requesting that District 11 “scrutinize all transportation and
haulage activities.” District 11 investigated the complaints the next day. Although no citations
were issued during their investigations, JWR #4 was required to implement various safeguards to
enhance haulage safety. The safeguards directly addressed many of the UMWA’s concerns.
A miner was injured on February 26, 1996, when a runaway locomotive collided with the
mantrip in which he was riding. MSHA investigated the accident immediately and concluded
that the accident was a result of the following factors:

•      Sanding devices that were inoperative, causing sand flow to be restricted by oversized
       gravel;
•      Improper brake-shoe adjustment on the runaway locomotive (citation issued);
•      Failure to maintain the locomotive under control, resulting from excessive speed; and,
•      Operator’s failure to have a program in place to systematically maintain the haulage
       vehicles and the track (103 (k) order to withdraw issued).

Brakes were an issue in the UMWA’s January 18th Section 103 (g) complaint, and brakes were
cited during the 103 (g) investigation. However the brake-shoe citation was later dropped by the
Solicitor of Labor (SOL) when the brake manufacturer established that the wear on the brake
shoes was not excessive, but rather, the result of a normal period of contour adjustment to the
locomotive wheel. The gravel and excessive speed issues were not directly referenced or implied
in the 103 (g)s.

       Aftermath of the Accident

       As noted in the District 11 accident investigation report, in addition to the accident, there
       had been several previous haulage accidents at JWR #4, some involving injuries. JWR#4
       was required to improve its haulage and traffic control procedures as a result of the 103
       (k) order to withdraw from the mine that was issued by District 11 during the accident
       investigation. Meetings took place during February 26-29, 1996, between JWR and union
       officials. MSHA’s role in the 103 (k) process is to evaluate the adequacy and
       reasonableness of the operator’s traffic control proposals. MSHA is not required to
       design a plan for the operator, or enforce the degree of regulatory specificity, such as
       would be found in roof-control or ventilation-control plans. District 11 worked with both
       JWR and the UMWA, reviewed various proposals, and accepted JWR’s March 1, 1996
       proposal. The UMWA protested many of the procedures and again requested in writing
       that MSHA require JWR#4 to implement a dispatcher system. Our review indicates that
       District 11's acceptance of JWR’ s new procedures was reasonable, and that track and
       haulage conditions significantly improved, thereafter. However, District 11 could have
       better communicated its role and limitations as an enforcement agency to the UMWA.
       For example, District 11 management did not respond in writing to correspondence from
       the UMWA protesting haulage procedure acceptance, although supervisory inspectors
       met with Union officials to discuss the concerns.

8.     Conflict of Interest at JWR#4

We evaluated concerns with respect to a potential conflict of interest at JWR #4 raised by the
UMWA to determine whether such a conflict existed for a District 11 inspector and, if so, had
MSHA personnel failed to cite obvious violations during a July 13, 1996 inspection conducted at
the mine. MSHA has previously examined these accusations and, like our review, found some
conflicting information.
The UMWA indicated that on the above date, the following specific conditions existed at JWR
#4: severe accumulations of float coal dust; loose coal and other combustibles; inadequate rock
dusting; improper handling of explosives; and, that the inspector conducting the inspection
refrained from issuing citations because of her personal relationship with the mine foreman. Our
review of MSHA’s inspection activities, as well as interviews that were conducted, confirmed
the contention that the inspector in question had been previously employed by JWR and had a
dating relationship with the JWR #4 mine foreman. However, our review did not support that
MSHA inspectors and engineers had failed to cite obvious violations during that inspection.

Analysis of the documentation from MSHA’s official files showed that an inspection at JWR #4
had not been scheduled for July 13, 1996. Rather, earlier that day, the inspector and two
engineers from MSHA’s Pittsburgh Technical Support Center had been inspecting seals at JWR
#5 mine. Since the engineers were scheduled to return to the Technical Center the following day,
District management requested that the three of them proceed to JWR #4 mine after they
completed their work at #5 to examine some concerns about pillar stability at the No. 2 longwall.

According to MSHA documentation, when the MSHA inspection team entered JWR #4 mine,
they were accompanied by the JWR Manager of Strata Control, the mine foreman, and the
UMWA Local 2245 President. They traveled underground to a number of sections within the
mine, including the No. 2 longwall, where they examined pillar stability during extraction of
longwall equipment. MSHA conferred with the UMWA representative throughout the
inspection.

Further review disclosed that the group specifically examined and commented on areas such as
the #4 and #1 entries as having been “heavily rock dusted.” The UMWA representative and the
MSHA inspector examined two wooden explosive magazines and found no problems with their
contents. According to the inspector, the union representative was asked his opinion of the
overall condition of the No. 2 longwall, and indicated that he thought “it looked pretty good....a
lot better than he had heard.” While there is no way to know the exact conditions that existed
during the evening shift of July 13, 1996, we did not identify evidence supporting the Union’s
position that the inspector had refrained from citing obvious violations during the inspection.

MSHA policy and procedures state that all personnel must have at least 2 years current
employment with MSHA prior to conducting assignments at mines where they were formerly
employed. While MSHA was in compliance with this policy, that policy does not address the
specific issue of immediate family, marriage or dating relationships between MSHA inspectors
and mine employees. Nevertheless, when this issue of possible conflict of interest was raised to
District 11 management, they took the necessary steps to reassign the inspector to mines not
owned by JWR.

Because of the relatively static labor pool that supplies personnel to both the mining industry and
MSHA, some individuals who fill mining jobs will eventually migrate into MSHA inspector and
technical positions. This interchange has advantages for the individuals, the industry and MSHA
but complicates the establishment of rigid policies restricting all family, marriage or dating
relationships. Many of those relationships are inevitable and already exist. Nonetheless, MSHA
should continue to vigorously enforce its policy regarding prior employment. In addition, MSHA
should develop a policy, consistent with its ethics guidelines and labor-management agreement,
that requires inspection personnel to disclose to agency management officials both immediate
family relationships with mine employees and any other personal relationships that may give
even the appearance of a conflict of interest. As those instances arise, MSHA should take
appropriate steps to address the potential for actual or perceived conflicts of interest.

9.     District 11 Management Issues

As part of our overall review of District 11 operations, we examined a number of issues
pertaining, especially, to new management initiatives introduced during the establishment of
District 11. Some of the new inspection practices generated initial expressions of concern from
various MSHA inspectors and stakeholders. Based on our analysis of documentation from
MSHA’s files, as well as interviews conducted with management officials, staff, mining industry
officials and UMWA officials, we concluded that many of the management initiatives have
contributed to improving the effectiveness of the inspection program in the District and have
gained substantial acceptance as their positive impacts have become evident.

Soon after MSHA established the District 11 Office in October 1995, the newly assigned
manager and assistant manager began their internal assessment of office operations. Since the
new office was being upgraded from what had previously been a field office, management
determined a need to make certain changes to existing systems and procedures, and to establish
new ones. As is often the case with reorganizations, our interviews confirmed that management
faced initial resistance to many of its proposed changes.

Predictably though, resistance to such changes has diminished over time. While some inspectors
interviewed had voiced early concerns, those concerns were not universally held, and many of
those who had indicated initial resistance now admitted their gradual understanding and
acceptance of the changes. This is attributable to a number of factors including, the two years
that have elapsed, the maturing of the workforce, as well as the introduction of staff from other
districts.

When the new management team arrived in Birmingham, they found an inspection staff who had
been working out of the field office for quite some time. As inspectors retired or transferred, a
number of replacements were brought in from other MSHA districts. The new staff were initially
viewed with some skepticism but, ultimately, have been received as positive additions. These
new inspectors brought their inspection experience and techniques from other parts of the
country, thereby enhancing both the enforcement activities and overall professionalism of
District 11.

Another issue that prompted considerable discussion among the inspectors interviewed was that
of unsupportable violations. As has already been discussed elsewhere in our report, this was an
area that concerned not only District 11 management but also the Office of the Solicitor. The
management team’s efforts to improve the overall quality of citations and orders issued by
inspectors, and their insistence on inspectors citing violations that would be supportable if taken
to litigation, has resulted in a 60 percent decrease in contested violations. These actions have
further enhanced the professionalism of the inspection workforce and also resulted in renewed
confidence in MSHA’s enforcement efforts by many company operators.

Our interviews with several mining industry officials confirmed that the practices instituted with
the establishment of the District have improved MSHA’s image for performing quality
inspections. As with any change in leadership, some of the mine operators were skeptical at first
of the initiatives proposed by the new District 11 management team. As a result of early
meetings and discussions encouraged by MSHA, the operators’ initial perceptions have changed
and they now view the agency as a more professional and efficient partner in the effort to keep
the mines safe.

During interviews, the UMWA raised a concern regarding a general lack of presence in the
mines by supervisory inspectors. Likewise, MSHA management saw the need to improve
supervisory oversight. Therefore, District management instituted a requirement that field office
supervisors and specialist supervisors must observe an inspector in the performance of a mine
inspection at least 20 times per quarter. That requirement was further enhanced by having
inspectors turn in their citations on a daily basis. These two changes alone have increased
supervisory field presence and improved oversight.

Coverage on all shifts is always a concern for MSHA management. Inspectors are required to
observe mining operations on all shifts, including weekends. While neither the Mine Act nor
MSHA regulations or policies prescribe the extent of inspections required on any shift,
inspections must include representation across each of the shifts. Although the number of owl
shift inspections is low (approximately 5% in 1995 and 1996), the proportion of accidents
occurring on the owl shift that resulted in lost-time injuries is 30 percent, which does not appear
disproportionate to the other shifts.

Analysis of the inspection data supported the position that the issue of inspection coverage, while
complicated by MSHA’s “First 40” work schedule restrictions, has not been a problem. The
“First 40” work schedule requires an inspector to work five consecutive days, beginning on
Sunday (but no later than Monday). While management is not permitted by the labor-
management contract to schedule an inspector’s tour of duty to begin on Tuesday, supervisors
have the authority to approve an inspector’s request to begin his or her tour on a day other than
Sunday or Monday. In addition, two inspectors per field office provide Saturday inspection
coverage on an overtime basis. As the workforce continues to mature, non-standard work shifts
are becoming more predominant in order to further ensure a reasonable presence in the mines,
seven days a week.

Another initiative undertaken by the management team was the formation of an Accident
Prevention Group (APG). Previously, two resident inspectors had been assigned to each of eight
underground mines: JWR #3, #4, #5, and #7; Drummond’s Chetopa, Shoal Creek and Mary Lee
#1; and Pittsburg & Midway’s North River. The decision was made to form an APG by taking
one inspector from each of these mines. In addition to their accident prevention activities, these
inspectors were also used to assist the resident inspectors in the completion of AAA inspections
at any of the mines, as needed. While this was seen as a positive change by many inspectors,
attrition gradually reduced the size of the group to two inspectors. As a consequence,
management redeployed two resident inspectors to each of the following five mines: JWR #3,
#4, and #7; Shoal Creek; and USX’s Oak Grove. Now, inspectors are shifted where resources are
needed and availability permits, particularly at the end of a quarter.

In summary, our review determined that the efforts undertaken by District 11 management were
generally based on sound management practices and principles. Not every decision made by
them has been received favorably, nor has every decision remained unchanged. We have
concluded though, that those management decisions were made in a sincere effort to improve the
overall effectiveness of District 11 enforcement activities.


IV.    Conclusions

The UMWA’s concerns are symptomatic of significant problems in achieving effective
communication between District 11 and UMWA officials. First, certain issues, such as the
UMWA’ s February 12, 1996, complaint, could possibly have been avoided through early and
open good-faith meetings between the parties, including the District manager. Second, District
11 personnel from the inspector-level to the District manager must endeavor to fully
communicate to the Union MSHA’s policies on enforcement of the Mine Act, as well as
evolving legal issues. This could help avoid any UMWA perception of lax enforcement, such as
in the JWR haulage case, by clearly establishing certain MSHA jurisdictional limitations. Third,
even in those instances when the UMWA inaccurately or unfairly maligns MSHA officials, the
agency can still learn from UMWA concerns. For example, although the UMWA used
inflammatory rhetoric in claiming malfeasance on the part of MSHA inspectors in the fatal
accidents at Drummond-Kellerman and JWR #5 in November 1995, we did find that all MSHA
inspectors could greatly benefit from increased training in the area of above-ground structural
inspections.

Finally, we conclude that both MSHA employees and UMWA officials in District 11 are very
dedicated to the safety and health of miners in Alabama. Ideally, MSHA and the UMWA can
find additional approaches to communicate and work better together to achieve their mutual
goals.

V.     Recommendations

We recommend that the Assistant Secretary for Mine Safety and Health:

1.     Ensure that the District 11 Conference Officer improves communications with inspectors
       by providing regular briefings regarding those judicial or Commission decisions that
       affect the issuance of citations and orders.

MSHA Response

“We agree that communications between the District 11 Conference/Litigation Representative
(CLR) and the inspectorate regarding judicial and Federal Mine Safety and Health Review
Commission (Commission) decisions that affect the issuance of citations and orders can be
improved. To accomplish this goal, we have instructed the CLR to conduct monthly briefings
with the inspectorate and advise them of any new Administrative Law Judge (ALJ) or
Commission decisions which have impacted Agency enforcement actions. To ensure that the CLR
has the most current information regarding these decisions, we have subscribed to the Legal
Quarterly Digest of Mine Safety and Health Decisions (Digest). This is a quarterly newsletter
which captures all of the latest ALJ and Commission decisions. In addition, we have also
provided the CLR with a software application and the necessary training which will enable the
CUR to access the Westlaw database. This database has a compendium of several years of ALJ,
Commission, Circuit Court and Supreme Court decisions which have affected Agency
enforcement strategies and inspection activities.

OIG’s Conclusion

On the basis of MSHA’s response, we consider this recommendation resolved. To close this
recommendation, we would appreciate receiving a copy of the instructions to the CLR, if
provided in writing. In addition, please provide the dates of any monthly briefings conducted
thus far for the inspectors and the meeting agendas, if prepared.

2.     Provide copies to inspectors and supervisors alike of those FMSHC and AU rulings that
       serve as the basis for a CLR’s decision.

MSHA Response

“In conjunction with the above recommendation, the CLR will retrieve from both the Digest and
the Westlaw database, all judicial and Commission decisions that impact the manner in which an
inspector conducts an inspection and/or enforces a regulation. The CLR will provide copies of
these decisions to the inspectorate and their first line supervisors. The CUR will also ensure that
any related questions or issues are promptly addressed.”

OIG’s Conclusion

We concur with the corrective actions described by MSHA and have, therefore, resolved and
closed this recommendation.


3.     Ensure that thorough training is provided to all inspectors on identification of potential
       above-ground structural hazards. This training could include the course that has already
       been developed by the engineers at MSHA’s Pittsburgh technical center and presented to
       members of the UMWA. This training should be provided to all new inspectors as part of
       their normal Academy curriculum, and incorporated with the normal training and
       instruction activities conducted with UMWA safety and health officials.

MSHA Response

“The Agency agrees that the training for inspectors who are responsible for inspecting surface
structures can be improved. We will supplement the current training curriculum for surface
inspectors with the subject matter developed by the Pittsburgh Technical Support Center (PTSC)
and recently presented to the United Mine Workers of America (UMIVA) and the surface
inspectors in District 11. This course focused on a visual safety evaluation of surface structures.
If the person inspecting the structure identified potential physical problems such as erosion,
cracking, shifting and settling, he would contact the appropriate regulatory authority for a more
in-depth evaluation. In our case, it would mean that we would contact the structural engineers
from the PTSC. We will also incorporate this training into the curriculum for new inspectors and
periodically discuss this inspection activity at district health and safety meetings, UMWA Safety
Committee training seminars and Surface Health and Safety seminars.”

OIG’s Conclusion

We concur with MSHA’s proposed corrective actions and consider this recommendation
resolved. In order to close this recommendation, please provide us with a copy of the training
curriculum for surface inspectors and new inspectors when these materials are available.

4.     Encourage continuation of the joint meetings and dialog sessions initiated in Alabama
       between MSHA District management and inspectors, UMWA safety and health
       committeemen, Local and International Union representatives, and industry officials each
       quarter to foster increased communication and understanding. Such meetings should
       focus on the issues highlighted in this report, particulary the subjects listed below.

       •       How do the Mine Safety and Health Act’s statutory and regulatory limitations
               influence MSHA’s enforcement activities?

       •       What are MSHA’s policies and procedures regarding the inspection of coal mines,
               especially in regard to 103 (g)s, haulage, above-ground structural inspections,
               conflicts of interest, and the nature and severity of violations?

       •       What are the safety and health concerns of the UMWA at specific mines?

       •       In what areas have MSHA enforcement policies and procedures changed or
               evolved in recent years?

       The benefits of these sessions should be evaluated six months after the date of this report.
       If these sessions do not prove useful, MSHA should seriously consider obtaining the
       services, on a pilot basis, of a facilitator with training expertise in problem-solving skills
       and win/win negotiating or similar conflict resolution strategies to guide and enhance the
       meetings.

MSHA Response

“We agree that it is vitally important to the success of any health and safety program to ensure
that there is a viable communication link between all interested parties. Accordingly, we will
continue to conduct quarterly health and safety meetings between our management and
inspection personnel, labor officials and representatives, and mine operators and other
interested parties. These meetings wilifocus on all health and safety issues, particularly those
that deal with (1) the Mine Act’s statutory and regulatory influence on MSHA enforcement
activities; (2) MSHA's inspection procedures for 103 (g) inspections, haulage inspections,
above-ground structural inspections and the Agency's position on conflicts of interest and the
nature and severity of violations; (3) the safety and health concerns of the UMWA at specific
mines; and (4) the evolvement of MSHA's enforcement policies and procedures over recent
years.

We will evaluate the outcome of these meetings on a semiannual basis. if the meetings do not
provide the forum for discussing and developing substantive solutions to health and safety issues,
MSHA will explore the possibility of enlisting an individual(s) with subject matter expertise in
problem solving and conflict resolution.”

OIG’s Conclusion

Prior to the issuance of our draft report, District 11 had initiated credible efforts, through the
quarterly health and safety meetings, to address the communications issues we cited. We,
therefore, consider this recommendation to be resolved. We would appreciate receiving a copy of
your first semi-annual evaluation of the outcome of these meetings. Based upon the evaluation’s
results, we will determine whether the recommendation should be closed or whether further
actions are appropriate.

5.     Institute a policy, consistent with MSHA’s ethics guidelines and labor-management
       agreement, requiring inspection personnel to disclose to agency management officials
       both immediate family relationships with mine employees and any other personal
       relationships that may give the appearance of a conflict of interest. Following the
       issuance of the policy, provide guidance to managers regarding appropriate
       considerations and steps for addressing potential personal conflicts of interest.

MSHA Response

“We agree that MSHA employees must conduct their work in a highly professional manner and
that there is no room for even the appearance of a conflict of interest in the workplace.
Accordingly, we will conduct focused employee ethics training with particular emphasis on any
personal relationship which creates the appearance of a conflict of interest. We will review
current Agency policy on this matter and if a revision is warranted, we will implement that
change. Additional guidance on how to address potential personal conflicts of interest will be
provided to the managers and first-line supervisors.”

OIG’s Conclusion

We concur with MSHA’s proposed corrective actions and have resolved this recommendation. In
order to close this recommendation, please provide us a copy of the curriculum for the focused
ethics training and the additional guidance to managers and first-line supervisors. In addition, we
would appreciate being advised of your decision regarding the need for revisions to Agency
policy and receiving a copy of any such revisions.
Major Contributors to this Report:

Brent Carpenter, Team Leader
Keota Fields
Clifford Hopkins
Kevin Malone, Team Leader
Dennis Raymond
Appendix A
                                                                 Appendix A
Glossary
           AAA                  Quarterly mine inspection

           ACRI                 Alternative Case Resolution Initiative

           ALJ                  Administrative Law Judge

           APG                  Accident Prevention Group

           Block-light          System used for underground traffic control.
                                Very similar to traffic lights, mantrips may
                                enter sections of track (blocks) only when
                                the light is green and must stop and wait for
                                the block to clear, when the light is red.

           CMI                  Coal Mine Inspector

           CLR                  Conference Litigation Representative

           Commission           Federal Mine Safety and Health Review
                                Commission

           Conference Officer   Conference Litigation Representative

           Continuous and       Using machines with spiked, rotating
           longwall mining      drums or blades that extract coal by
                                cutting/grinding it

           District 11          MSHA’s Birmingham, AL district

           DOL                  Department of Labor

           Float coal dust      Dust carried by the air in a mine, which was
                                produced by the cutting and grinding of coal

           FMSHRC               Federal Mine Safety and Health Review
                                Commission

           GCJS                 Granular Coal Injection System

           Haulage              Transport of personnel, supplies, equipment,
                                etc. inside a mine.

           JWR                  Jim Walter Resources, Inc.
Mantrip        Railroad vehicle that transports miners in
               and out of some mines.

Methane        Explosive gas present in coal mines

Mine Act       Mine Safety and Health Act of 1977

MSHA           U.S. Mine Safety and Health Administration

NDL            No Days Lost incidence category

NFDL           Non-fatal Days Lost incidence category

OACE           Office of Analysis, Complaints and
               Evaluations

OI             Office of Investigations

OIG            Office of Inspector General

Owl shift      Night shift in coal mines

POV            Pattern of Violations

Rock dust      Crushed limestone spread around the walls
               and roof of a mine to prevent explosions
               fueled by coal dust

Section        Active, working part of a mine

SOL            Department of Labor’s Office of Solicitor

S&S            Significant and Substantial violation

UMWA           United Mine Workers of America

USX            U.S. Steel Corporation

Working Face   Any place in a coal mine in which work of
               extracting coal from its natural deposit in the
               earth is performed during the mining cycle.

103 (g)        Section of the Mine Act specifying a
               miner’s right to request an MSHA spot
               inspection.
103 (k)   Section of the Mine Act - order to withdraw
          personnel from a mine

104 (e)   Section of the Mine Act - Pattern of
          Violations
                                                                                     Appendix B



U.S. Department of Labor             Mine Safety and Health Administration
                                     4015 Wilson Boulevard
                                     Arlington, Virginia 22203-1984
SEP. 24, 1998

MEMORANDUM FOR F.M. BROADWAY
                   Assistant Inspector General for Analysis,
                      Complaints and Evaluations

FROM:                        J. DAVITT McATEER
                             Assistant Secretary for
                                 Mine Safety and Health

SUBJECT:                     Response to Draft Report No. 18-OACE-98-MSHA “Evaluation of
                             the Effectiveness of the District 11 Coal Mine Safety and Health
                             Inspection Program”

This is in response to your memorandum of August 31 and the attached subject draft report. We
have thoroughly reviewed the report and we agree with its stated conclusions and
recommendations. Following is our response to each of the recommendations and the corrective
actions we will implement to satisfactorily address these recommendations:

1.     We agree that communications between the District 11 Conference/Litigation
       Representative (CLR) and the inspectorate regarding judicial and Federal Mine Safety
       and Health Review Commission (Commission) decisions that affect the issuance of
       citations and orders can be improved. To accomplish this goal, we have instructed the
       CLR to conduct monthly briefings with the inspectorate and advise them of any new
       Administrative Law Judge (ALJ) or Commission decisions which have impacted Agency
       enforcement actions. To ensure that the CLR has the most current information regarding
       these decisions, we have subscribed to the Legal Quarterly Digest of Mine Safety and
       Health Decisions (Digest). This is a quarterly newsletter which captures all of the latest
       ALJ and Commission decisions. In addition, we have also provided the CLR with a
       software application and the necessary training which will enable the CLR to access the
       Westlaw database. This database has a compendium of several years of ALJ,
       Commission, Circuit Court and Supreme Court decisions which have affected Agency
       enforcement strategies and inspection activities.

2.     In conjunction with the above recommendation, the CLR will retrieve from both the
       Digest and the Westlaw database, all judicial and Commission decisions that impact the
       manner in which an inspector conducts an inspection and/or enforces a regulation. The
       CUR will provide copies of these decisions to the inspectorate and their first line
       supervisors. The CUR will also ensure that any related questions or issues are promptly
       addressed.
3.     The Agency agrees that the training for inspectors who are responsible for inspecting
       surface structures can be improved. We will supplement the current training curriculum
       for surface inspectors with the subject matter developed by the Pittsburgh Technical
       Support Center (PTSC) and recently presented to the United Mine Workers of America
       (UMWA) and the surface inspectors in District 11. This course focused on a visual safety
       evaluation of surface structures. If the person inspecting the structure identified potential
       physical problems such as erosion, cracking, shifting and settling, he would contact the
       appropriate regulatory authority for a more in-depth evaluation. In our case, it would
       mean that we would contact the structural engineers from the PTSC. We will also
       incorporate this training into the curriculum for new inspectors and periodically discuss
       this inspection activity at district health and safety meetings, UMWA Safety Committee
       training seminars and Surface Health and Safety seminars.

4.     We agree that it is vitally important to the success of any health and safety program to
       ensure that there is a viable communication link between all interested parties.
       Accordingly, we will continue to conduct quarterly health and safety meetings between
       our management and inspection personnel, labor officials and representatives, and mine
       operators and other interested parties. These meetings will focus on all health and safety
       issues, particularly those that deal with (1) the Mine Act’s statutory and regulatory
       influence on MSIHA’s enforcement activities; (2) MSHA’s inspection procedures for 103
       (g) inspections, haulage inspections, above-ground structural inspections and the
       Agency’s position on conflicts of interest and the nature and severity of violations; (3) the
       safety and health concerns of the UMWA at specific mines; and (4) the evolvement of
       MSHA’s enforcement policies and procedures over recent years.

       We will evaluate the outcome of these meetings on a semiannual basis. If the meetings do
       not provide the forum for discussing and developing substantive solutions to health and
       safety issues, MSHA will explore the possibility of enlisting an individual(s) with subject
       matter expertise in problem solving and conflict resolution.

5.     We agree that MSHA employees must conduct their work in a highly professional
       manner and that there is no room for even the appearance of a conflict of interest in the
       workplace. Accordingly, we will conduct focused employee ethics training with
       particular emphasis on any personal relationship which creates the appearance of a
       conflict of interest. We will review current Agency policy on this matter and if a revision
       is warranted, we will. implement that change. Additional guidance on how to address
       potential personal conflicts of interest will be provided to the managers and first-line
       supervisors.

We thank you for the opportunity to review and comment on the subject draft report. We always
welcome any constructive criticism which will enable us to do a better job protecting the
working environment of our Nation’s miners. If you have any questions concerning our
comments, please contact Robert A. Elam at (703) 235-9423.
____________________
        1
          Under section 103(g)(1) of the Mine Act, miners and their representatives have the right
to obtain an immediate (103(g)) MSHA inspection when there are reasonable grounds to believe
that a violation of the Mine Act has occurred, or an imminent danger exist. Miners also have the
right to be notified of negative findings of MSHA inspection results (30 CFR 43.6) before an
inspector leaves the mine, and may request an informal hearing with MSHA to challenge any
negative findings (30 CFR 43.7). In terms of immediacy, the Mine Act stipulates that 103(g)
complaints must be investigated as “soon as possible.”
       2
         The 103(g) process exists because of the reality that MSHA inspectors cannot be
everywhere. The Mine Act assumes that miners and their representatives are an integral part of
assuring mine safety through 103(g) complaints.
